No. 20-1368
IN THE SUPREME COURT OF THE UNITED STATES
CYNTHIA ROLLO-CARLSON, PETITIONER
v.
UNITEDE STATES OF AMERICA, RESPONDENT

CERTIFICATE OF SERVICE
I, Brian K. Lewis, a member of the Bar of this Court, hereby certify that on this 10th
day of June 2021, a copy of the Petition for Rehearing in the above-captioned case
was served upon the Acting Solicitor General of the United States, in accordance with
Supreme Court Rule 29.4(a), at 950 Pennsylvania Avenue, NW, Room 5616,
Washington, D.C. 20530-0001, via email to SupremeCtBriefs@USDOJ.gov and firstclass mail, postage prepaid from the post office in Woodbury, Minnesota 55125.

/s/Brian K. Lewis _______

Brian K. Lewis, Esq.
Counsel of Record
8362 Tamarack Village,
Suite 119-220
Woodbury, Minnesota 55125
Tel: (651) 829-1503
S. Ct. Bar ID #351120

